May 27, 2011

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Audit Report – Compliance with Occupational Safety and Health
         Administration Recordkeeping Requirements
         (Report Number HR-AR-11-004)

This report presents the results of our audit of the U.S. Postal Service’s compliance with
Occupational Safety and Health Administration (OSHA) recordkeeping requirements
(Project Number 10YG032HM000). The report responds to a request from Senator
Charles E. Grassley and addresses financial and operational risk. Our objective was to
determine whether the Postal Service recorded and reported injuries and illnesses in
accordance with OSHA requirements. See Appendix A for additional information about
this audit.

The Postal Service must comply with OSHA recordkeeping standards. Postal Service
officials are required to accurately and timely prepare and maintain records of
work-related injuries and illnesses.1 Three forms must be completed: the OSHA Form
300 Log of Work-Related Injuries and Illnesses, the annual OSHA Form 300A Summary
of Work-Related Injuries and Illnesses, and the OSHA Form 301 Injury and Illness
Incident Report. To enforce its standards, OSHA conducts workplace inspections that
can result in penalties when violations occur.

Recordkeeping provides a critical part of the Postal Service’s safety and health efforts
by helping prevent future work-related injuries and illnesses. Using injury and illness
data also helps identify and correct hazardous workplace conditions. Additionally, the
data is used for focusing inspections and tracking national occupational injury and
illness rates. In fiscal year (FY) 2010, recordkeeping accounted for 22 percent2 of the
proposed OSHA violations resulting in $63,600 in proposed penalties to the Postal
Service.




1
  Recording or reporting a work-related injury, illness, or fatality does not mean the employer or employee was at fault
or an OSHA rule has been violated.
2
  Data is from the Postal Service’s OSHA Citation Management Tool.
Compliance with Occupational Safety and Health                                                         HR-AR-11-004
 Administration Recordkeeping Requirements




Conclusion

The Postal Service did not always record and report injuries and illnesses in accordance
with OSHA requirements. In addition, if this data is not accurate or complete, it could
impact management’s ability to identify and correct hazardous conditions, as well as
their efforts to mitigate future risks. Incomplete and inaccurate OSHA recordkeeping
could result in citations with significant penalties to the Postal Service considering it has
more than 30,000 facilities nationwide.

OSHA Recordkeeping Accuracy and Completion

We found potential OSHA recordkeeping violations at 23 of 24 (96 percent) facilities we
reviewed. We reviewed a sample of OSHA Forms 300 and 301 from each selected
Postal Service facility for calendar years (CYs) 2009 and 2010 and found the forms
were not always complete or accurate. Specifically, 43 of 48 (90 percent) OSHA
Forms 300 and 12 of 48 (25 percent) OSHA Forms 301 reviewed contained errors or
were incomplete, which could lead to potential citations and significant penalties.3

This occurred because:

    The Postal Service does not have adequate procedures for ensuring OSHA
    recordable4 injuries or illnesses are appropriately identified, classified, and recorded
    by responsible Postal Service officials.5

    Postal Service policy6 does not provide clear guidance for determining the OSHA
    recordable dates when they differ from initial injury or illness dates.7

    Postal Service officials are required to manually complete OSHA Forms 300, which
    increases the risk of inaccurate recordkeeping. Currently, the automated OSHA
    Form 300 within the Employee Health and Safety application has not been activated
    for local use in all offices; therefore, all facilities must manually complete and
    maintain the OSHA Form 300.

    Postal Service management did not require officials responsible for preparing OSHA
    Forms 300 and 301 to take OSHA recordkeeping training.



3
   Includes three OSHA Forms 300 and four OSHA Forms 301 that were either not provided in time or could not be
located.
4
   OSHA recordable events are work-related injuries or illnesses resulting in death, days away from work, restricted
work, transfer to another job, medical treatment beyond first aid, loss of consciousness, or a significant injury or
illness diagnosed by a physician or other licensed health care professional.
5
   Currently, Human Resource Management (HRM), Safety, and facility officials are responsible for determining and
recording OSHA recordkeeping cases.
6
   Postal Service, OSHA Recordable Date Policy, February 4, 2010.
7
   Initial dates of injury or illness do not always coincide with OSHA’s date of injury or onset of illness.


                                                          2
Compliance with Occupational Safety and Health                                                     HR-AR-11-004
 Administration Recordkeeping Requirements


Recordkeeping violations could result in citations and significant penalties. The issues
we identified in our audit could result in potential penalties of at least $55,000.8 If OSHA
identified similar violations nationwide at the Postal Service’s more than 30,000
facilities, the penalties could be significant. Additionally, inaccurate and incomplete
recordkeeping could adversely affect injury and illness statistics used by the Postal
Service, its employees, and OSHA.

We recommend the vice president, Employee Resource Management:

1. Enhance procedures to ensure Human Resource Management, Safety, and facility
   officials are appropriately identifying, classifying, recording, and communicating
   Occupational Safety and Health Administration injuries.

2. Revise the Postal Service Occupational Safety and Health Administration
   Recordable Date policy to better clarify how to determine Occupational Safety and
   Health Administration recordable dates when they differ from the initial injury or
   illness date.

3. Complete the automation capability of the Occupational Safety and Health
   Administration Form 300, Log of Work-Related Injuries and Illnesses, in the
   Employee Health and Safety system, and require all facilities to generate the
   automated form to validate them with the corresponding manual versions.

4. Establish mandatory training for officials responsible for determining Occupational
   Safety and Health Administration recordable cases and completing related forms.

In addition to the issues we identified, OSHA sent a letter to the Postal Service on
January 4, 2011, raising concerns about a systemic failure by the Postal Service to
properly maintain logs of work-related illnesses and injuries. OSHA reviewed
recordkeeping at 10 facilities and issued 37 citations resulting in 242 alleged violations
and $39,000 in proposed penalties.9 Further, OSHA indicated that future recordkeeping
violations at any Postal Service facility may be subject to citations classified as willful or
repeat.10 The Postal Service indicated they are reviewing the citations to identify the
types of errors and possible root causes.




8
  We determined 43 OSHA Forms 300 and 12 OSHA Forms 301 could be subject to a $1,000 fine (see Appendix C).
9
  Proposed penalties are fines levied against the Postal Service prior to abatement or settlement.
10
   Application of violation-by-violation procedures is appropriate in situations where the violations in question
constitute willful violations. Violation-by-violation procedures increase the penalty’s impact of OSHA's limited
enforcement resources.


                                                        3
Compliance with Occupational Safety and Health                                    HR-AR-11-004
 Administration Recordkeeping Requirements



Management’s Comments

Management stated they generally agreed with our recommendations. With regard to
recommendation 1, management believes the Postal Service has adequate policies and
procedures for reporting OSHA injuries and stated they were already taking proactive
measures for making improvements in this area to include setting a required core goal
for all safety specialists to conduct OSHA recordkeeping reviews. For recommendation
2, management believes the OSHA recordable date policy was adequate. They stated
that, prior to implementation of our audit, they were developing an OSHA recordkeeping
training which will be strengthened based on the feedback from the U.S. Postal Service
Office of Inspector General (OIG). For recommendation 3, management stated they
pushed the functionality of generating the OSHA Form 300 through the EHS system to
production in April 2011. Further, a national effort is underway for every facility to
validate FY 2010 OSHA Forms 300 generated by the EHS system against forms
completed manually. Regarding recommendation 4, management stated they are
working to deploy a required web-based training course under the FY 2012 national
Strategic Training Initiative for facility safety coordinators, safety specialists, and safety
managers.

Management stated they were not able to review or confirm the information used by the
OIG to determine the accuracy or completion of the sampled OSHA forms.
Management acknowledged the OIG found examples of incomplete and possibly
inaccurate data that could lead to potential citations. See Appendix E for management’s
comments in their entirety.

Evaluation of Management’s Comments

Management generally agreed with our recommendations and provided planned
corrective action and target implementation dates. The OIG considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues indentified in the report. Specifically, we find that their proposed action to
increase recordkeeping reviews, develop and strengthen mandatory training, and
automate OSHA 300 Forms meet the intent of our recommendations.

With regard to recommendation 1, we agree that additional recordkeeping reviews
should help identify Occupational Safety and Health Administration issues; however, we
believe management could enhance their procedures to ensure resolve issues identified
in the reviews. To close this recommendation, we would like management to provide the
results of the recordkeeping reviews and any additional corrective action and
enhancements to resolve the issues identified.

Regarding management’s review of the OSHA forms, during the audit we provided a list
of the sampled facilities we reviewed and the types of errors identified for each OSHA
Form 300. We also met with management to discuss and review a sample of the OSHA
Forms 300 with discrepancies. After receiving management’s comments, we met with



                                                 4
Compliance with Occupational Safety and Health                             HR-AR-11-004
 Administration Recordkeeping Requirements


management again on May 12, 2011, and provided a copy of all the OSHA Forms 300
with discrepancies. Management indicated agreement with the discrepancies we
identified.

The OIG considers all of the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Anthony J. Vegliante
    Sylvester Black
    Stephan J. Boardman
    Sean M. Lacey
    Corporate Audit and Response Management




                                                 5
Compliance with Occupational Safety and Health                                                        HR-AR-11-004
 Administration Recordkeeping Requirements


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Occupational Safety and Health (OSH) Act of 1970, administered by OSHA,
established a nationwide federal program to protect workers from job-related death,
injury, and illness. Under the OSH Act, employers are responsible for providing safe and
healthy workplaces for their employees. OSHA's role is to ensure these conditions by
setting and enforcing standards; and providing training, education, and assistance.
Covered employers comply with the safety and health standards and have a general
duty to provide their employees with a workplace free from recognized serious hazards.
OSHA provides enforcement through workplace inspections. See Appendix D for a map
depicting OSHA citations for FY 2010.

In 1998, the Postal Employees Safety Enhancement Act (PESEA) changed the status of
the Postal Service to an employer that is fully subjected to the OSH Act. Previously, the
Postal Service, as a quasi-federal agency, was exempt from private sector provisions of
the OSH Act.11 If violations occur, the Postal Service may be cited, penalized, and, in
extreme cases, referred for criminal prosecution by OSHA.12 In recent years, the Postal
Service has seen an increase in inspections, citations, and proposed penalties.
Although there has been a significant increase, the majority of the citations and
proposed penalties relate to electrical violations. See Chart A for OSHA statistics for the
last 3 fiscal years.




11
   Federal agencies are covered under Section 19 of the OSH Act and Executive Order 12196, Occupational Safety
and Health Programs for Federal Employees, February 26, 1980.
12
   Citations inform an employer of regulations and standards alleged to have been violated. Fines for willful or
repeated violations can range from $5,000 to $70,000 for each violation, and each serious violation may result in a
penalty up to $7,000.


                                                         6
Compliance with Occupational Safety and Health                                                      HR-AR-11-004
 Administration Recordkeeping Requirements




           Chart A - OSHA Inspections and Proposed Citations
  600



                                                                                              528
  500                                                  FY 2008
                                                       FY 2009
                                                       FY 2010

  400




  300                         304



  200                                                                                 205
                176     185
                                                          165

  100                                                                         112
                                                81
                                            59           54%
                                           34% 44%
     0
              Total Inspections        Inspections with Proposed        Total Proposed Citations
                                               Citations*
 Source: www.OSHA.gov                                     *Percentages =Proposed Citations/Total Inspections


The Postal Service must comply with OSHA’s recordkeeping standards. OSHA provides
enforcement through workplace inspections. Over the last 3 fiscal years, OSHA’s
inspections and citations to the Postal Service have increased considerably and
recordkeeping violations are among the issues identified. Recordkeeping citations and
penalties in FYs 2008 through 2010 were among the top three proposed OSHA safety
violations in the Postal Service. See Table A for OSHA enforcement statistics for the
Postal Service for FYs 2008 through 2010.




                                                   7
Compliance with Occupational Safety and Health                                                            HR-AR-11-004
 Administration Recordkeeping Requirements




                              Table A - OSHA Enforcement Statistics13
                                Inspections                                                              14
                                                                                Proposed Violations
                                    with
                 Total           Proposed          Proposed
              Inspections         Citations        Penalties         Other   Repeat      Serious      Willful      Total
 FY 2008              176                 59          119,360           51        2           59             0      112
 FY 2009                185                81          537,011          81         16          108             0    205
                                                                15
 FY 2010                304               165     6,615,708            143         33          272            80    528

     Total              665               305      $7,272,079          275         51          439            80    845


OSHA provides specific recording and reporting requirements that comprise the
framework for the nationwide OSH recording system. Under this system, it is essential
that data recorded by employers be uniform and accurate to ensure the consistency and
validity of the statistical data that is used by OSHA for many purposes, including
inspection targeting, performance measurement, standards development, and resource
allocation. The data also aids employers and compliance officers in analyzing the safety
and health environment at the employer’s establishment.

In December 2009, the Postal Service began implementing the EHS system for
reporting accidents and injuries. The EHS system is designed to streamline the
reporting and management of accidents, injuries, and claims for facility supervisors and
Safety and HRM personnel. OSHA recordable accidents are also determined within the
system based on the information entered.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service recorded and reported
injuries and illnesses in accordance with OSHA requirements.

The scope of this audit included fieldwork at Postal Service Headquarters and facilities
nationwide to determine whether the Postal Service is recording injury and illness data
in accordance with OSHA requirements. To accomplish the objective, we:

      Interviewed Postal Service officials responsible for recording and reporting injury and
      illness data.


13
   The Postal Service may contest the citation, proposed penalty, and/or abatement date. These numbers do not
reflect those contested items that have resulted in reductions in the violation’s severity, number, or penalty amount.
14
   Serious violations are those where a substantial probability that death or serious physical harm could result. Willful
violations are those in which an employer intentionally allows a violation to continue to exist. Other violations are for
hazardous conditions that cannot reasonably be predicted to cause death or serious physical harm to exposed
employees but do have a direct and immediate relationship to their safety and health.
15
   Proposed fines associated with recordkeeping were $63,600. $5.8 million in proposed fines were related to
electrical violations. Postal Service officials stated they were reviewing and addressing the proposed electrical
citations and have developed an electrical work plan to mitigate risks.


                                                            8
Compliance with Occupational Safety and Health                                                   HR-AR-11-004
 Administration Recordkeeping Requirements


       Conducted site visits in the Western Area and at facilities in the Hawkeye and
       Colorado/Wyoming Districts.

       Sampled three facilities from each of the eight Postal Service areas for review.

       Obtained OSHA Forms 300 and 301 from 24 sampled facilities for CYs 2009 and
       2010.

       Analyzed OSHA recordkeeping forms using accident reporting data, Office of
       Workers' Compensation Programs (OWCP) claims,16 and other supporting
       documents to determine whether injury and illness information was appropriately
       recorded.

       Reviewed OSHA injury and illness statistics and trends for FYs 2008 through 2010.

We conducted this performance audit from June 2010 through May 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on March 22, 2011, and
included their comments where appropriate.

We assessed the reliability of injury and illness data by interviewing Postal Service
officials knowledgeable about the data; reviewing existing information about the data
and the system that produced it; obtaining system demonstrations; and comparing the
data with hard-copy OSHA and OWCP documentation. We determined that the data
was sufficiently reliable for the purposes of this report.




16
     We reviewed select CA-2 Forms, Notice of Occupational Disease and Claim for Compensation.


                                                         9
   Compliance with Occupational Safety and Health                                            HR-AR-11-004
    Administration Recordkeeping Requirements


   PRIOR AUDIT COVERAGE

                                               Final
                             Report
     Report Title                             Report                       Report Results
                             Number
                                               Date
Powered Industrial       NO-AR-09-010       9/22/2009    Internal controls over vehicle safety, security, and
Vehicle Management                                       inventory were not in place, because management
Systems at the                                           did not implement compensating internal controls
Washington Network                                       when the Powered Industrial Vehicle Management
Distribution Center                                      Systems was no longer functioning. For example,
                                                         equipment operators did not complete OSHA safety
                                                         checklists as required, resulting in management not
                                                         identifying unsafe vehicles. We recommended and
                                                         management agreed to provide closer supervision
                                                         and improve internal controls over powered
                                                         industrial vehicles.
Workplace Safety and     HM-AR-09-001       2/27/2009    The Postal Service provides safety and health
Injury Reduction Goals                                   programs to ensure compliance with OSHA
in Selected Capital                                      standards. We made recommendations regarding
Metro Area Facilities                                    overstated injury reduction goals and the correction
                                                         of safety deficiencies. Management agreed to all
                                                         10 recommendations, but they disagreed with
                                                         several of the findings in the report, as well as the
                                                         monetary impact of $63,000.
Postal Service’s         HM-AR-07-002       5/16/2007    The Postal Service established and exceeded its
Workplace Safety and                                     OSHA illness and injury (II) reduction goals for
Workplace-Related                                        FYs 2005 and 2006, and there may have been a
Injury Reduction Goals                                   corresponding reduction in the Postal Service’s total
and Progress                                             accident and OSHA II costs. However, the Postal
                                                         Service did not capture individual accident costs
                                                         and, therefore, we could not determine the cost
                                                         savings in key categories from 1 year to the next.
                                                         We recommended and management agreed to
                                                         closely monitor conversion to the Systems
                                                         Applications and Processes Environmental Health
                                                         and Safety module and, as soon as possible,
                                                         ensure the upgraded system captures key costs by
                                                         facility, district/performance cluster, and area.




                                                    10
Compliance with Occupational Safety and Health                                                            HR-AR-11-004
 Administration Recordkeeping Requirements


                                  APPENDIX B: DETAILED ANALYSIS

In FY 2010, OSHA issued recordkeeping citations to the Hawkeye District that resulted
in proposed penalties of $20,000. Postal Service officials indicated the recordkeeping
review conducted by OSHA in the Hawkeye District encompassed 168 facilities
including 1,758 entries17 from OSHA Forms 300 and 234 data elements from OSHA
Forms 301. The penalty was reduced to $14,000, and the Postal Service reached a
settlement where it agreed in part to correct the violations, add OSHA Form 300 reviews
in the Hawkeye District, and provide recordkeeping training to district safety managers
in the Western Area.

In response to these citations and an employee complaint, Senator Grassley requested
the OIG determine whether the inaccurate injury and illness reports were representative
of a more systemic problem. Consequently, we conducted site visits at facilities in the
Hawkeye and Colorado/Wyoming Districts and in the Western Area. We also obtained
and reviewed samples of OSHA records from facilities in each Postal Service area for
CYs 2009 and 2010.

OSHA Recordkeeping Accuracy and Completion

We found the Postal Service did not always record and report injuries and illnesses in
accordance with OSHA requirements. Further, we concluded the recordkeeping issues
we identified were a problem nationwide and could adversely affect workplace safety. In
addition, these issues could result in future OSHA citations with penalties.

Specifically, we found potential OSHA recordkeeping violations at 23 of 24 (96 percent)
facilities we reviewed. Forty-three of 48 (90 percent) OSHA Form 300 logs and 12 of 48
(25 percent) OSHA Forms 301 reviewed contained errors or were not complete.

     OSHA Forms 300.

     o Four were not provided or were not timely.18

     o Thirty-three did not have sufficient injury/illness detail.19

     o Eighteen did not have the most serious outcome checked.20




17
   Each OSHA Form 300 case requires the completion of up to 10 data elements. The Postal Service indicated there
were 17,814 data elements included in the review.
18
   OSHA requires copies of the records to be provide within 4 business hours.
19
   OSHA requires a description of the injury or illness, parts of body affected and object/substance that directly injured
or made the person ill.
20
   OSHA requires each case to be classified by death, days away from work, job transfer or restriction, or other
recordable case.


                                                           11
Compliance with Occupational Safety and Health                                                            HR-AR-11-004
 Administration Recordkeeping Requirements



     o Eighteen did not contain the appropriate number of days the employee was away
          from work or had a job transfer/restriction.21

     o Eighteen had calculation errors.

     o Fourteen did not complete sections for identifying the person or location of the
          event or for identifying the injury or illness type.

     OSHA Forms 301.

     o Four were not provided or were not timely.

     o Five did not contain the required injury or illness detail.

     o Eight were not completed within 7 days of recordability.

     o Nine contained inaccurate designation as non-recordable.

Recordkeeping Procedures

The Postal Service does not have adequate procedures to ensure OSHA recordable
cases are properly identified, classified, and updated by responsible Postal Service
officials. Although the EHS system automatically classifies accidents as OSHA
recordable based on accident and medical information entered, there are exceptions for
medical treatment cases. For those cases, Postal Service personnel must make an
OSHA recordable determination to manually update the EHS system. HRM completes
forms to help identify OSHA medical treatment cases, but the process could be
enhanced to ensure cases are timely and consistently reviewed for OSHA recordability
and for ensuring those determinations are communicated to officials responsible for
updating the EHS system and manual forms.

Recordkeeping Policy

Postal Service policy does not provide clear guidance for determining the OSHA
recordable dates when they differ from initial injury or illness dates.22 A case is generally
recorded on the date of injury or illness with exceptions. Those exceptions include
cases where the employee cannot recall the specific date and where there are a series
of contributing or aggravating workplace events or exposures over time until the case
meets the recording criteria.23 Many of the OWCP claims we reviewed were not

21
   Job transfers occur when employees are transferred to another job while they are injured. Job restrictions occur
when employees are unable to perform certain duties while they are injured.
22
   OSHA recordable date is based on OSHA’s criteria and can be different from the initial accident date associated
with an OWCP claim.
23
   Use the date the illness or injury met OSHA recordable criteria when there was an intervening event or exposure
that occurred in the work environment that was a contributing or aggravating factor after the initial date of injury or
onset of illness.


                                                           12
Compliance with Occupational Safety and Health                                                  HR-AR-11-004
 Administration Recordkeeping Requirements


appropriately recorded when OSHA recordability criteria was met. For those claims, the
date the employee first became aware of the disease or illness may not be the correct
date for recording an OSHA illness or injury. The current Postal Service OSHA
recordable date policy does not clearly distinguish those occasions when the OSHA
recordable date will be different from the initial date of injury or onset of illness.

Manual OSHA 300 Forms

Postal Service officials at each facility must manually complete and maintain the OSHA
Form 300, because the Postal Service has not automated the form within the EHS
system for use in all offices.24 Manual completion of the OSHA Form 300 requires
OSHA recordable classifications to flow through HRM, Safety, and individual facilities,
which increase the risk of errors. Automating the OSHA Form 300 should help increase
efficiency and consistency and prevent clerical errors. Postal Service officials stated
they have implemented the initial components necessary to produce automated OSHA
Forms 300 and plan to have them for recordkeeping for CY 2011.

Training

Officials responsible for OSHA recordkeeping did not receive sufficient training for
recording OSHA injuries and illnesses. We reviewed training records for officials
responsible for OSHA recordkeeping and determined that 50 of 62 (81 percent)
employees did not receive OSHA recordkeeping training.

OSHA recordkeeping criteria cover a broad range of illness and injury scenarios;
therefore, it is important for officials to understand their responsibilities and the
requirements in order to prevent errors.

Recordkeeping violations could result in citations and significant penalties to the Postal
Service. In addition, these violations could adversely affect injury and illness statistics
used by the Postal Service, its employees, and OSHA. The issues we identified could
result in potential penalties of at least $55,000 for the 24 facilities we reviewed.
Additionally, in a letter to the Postal Service dated January 4, 2011, OSHA raised
concerns about a systemic failure by the Postal Service to properly maintain logs of
work-related illness and injuries. OSHA reviewed recordkeeping at 10 facilities and
issued 37 citations resulting in 242 alleged violations and $39,000 in initial penalties.
OSHA indicated that future recordkeeping violations at any Postal Service facility25 may
be subject to citations classified as willful or repeat. As a result of our audit, the Postal
Service indicated training materials and job aids would be reviewed and updated to
assist the field in recordkeeping.




24
   Management stated they have not implemented the automated OSHA Form 300 because of technical difficulties in
matching finance numbers to individual facilities.
25
   The Postal Service owns or leases more than 30,000 facilities.


                                                      13
Compliance with Occupational Safety and Health                                            HR-AR-11-004
 Administration Recordkeeping Requirements


                                        APPENDIX C: OTHER IMPACT

                              Finding                       Impact Category     Amount
                         OSHA Recordkeeping                  Assets at Risk26   $55,000




26
     Assets that are at risk of loss because of inadequate internal controls


                                                             14
     Compliance with Occupational Safety and Health                                  HR-AR-11-004
      Administration Recordkeeping Requirements


               APPENDIX D: FY 2010 OSHA PROPOSED CITATIONS AND PENALTIES
                                TO THE U.S. POSTAL SERVICE

$0 - $50,000                 $50,001 – $125,000            $125,001 - $200,000             Over $200,000


                              Contains Recordkeeping -                           Other -




                                                      15
Compliance with Occupational Safety and Health             HR-AR-11-004
 Administration Recordkeeping Requirements



                       APPENDIX E: MANAGEMENT’S COMMENTS




                                                 16
Compliance with Occupational Safety and Health        HR-AR-11-004
 Administration Recordkeeping Requirements




                                                 17
Compliance with Occupational Safety and Health        HR-AR-11-004
 Administration Recordkeeping Requirements




                                                 18
